No.
In The

Michelle J. Smith
and others,
Petitioners
v.

Nicholas French, Personal
Representative,
Respondent

CERTIFICATE OF COMPLIANCE
I, Michelle J. Smith, hereby certify that the foregoing complies
with the rules of the court that pertain to the filing of a Writ
of Certiorari.

I further certify that the foregoing complies with the
applicable length limitation because it contains 4,633 words.

Dated: August 28, 2021

Michelle J.
P.O. Box 42
Kingston, MA 02364
781-422-1045
mj smith0304@hotmail.com

